Case 19-973, Document 92, 03/20/2020, 2806476, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 20th day of March, two thousand twenty.
Before:

ROBERT D. SACK,
BARRINGTON D. PARKER,
DENNY CHIN,
Circuit Judges.

ORDER
Docket No. 19-973

John S. Kaminski,
Plaintiff - Appellant,
v.

Semple, Commissioner, of Dept, of Corrections,
Declaratory Only, George Jepsen, Attorney
General(formerly), State of Connecticut, Declaratory
Only, Walter Charles Bansley, IV, Attorney, of Bansley,
Anthony & Burdo (Inmate Legal Assistance
Contractor)(ILAP), Individual/Corporate,
Defendants - Appellees.

Appellant John S. Kaminski having filed a petition for panel rehearing and the panel that
determined the appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

Case 19-973, Document68-1, 12/18/2019,2732414, Pagel of7

19-973-cv
Kaminski v. Semple
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE

of Appellate Procedure 32.1 and this court's Local Rule 32.1.1.

When citing a

SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE

Federal Appendix or an electronic database (with the notation "summary order”). A
PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED
BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 18th day of December, two thousand nineteen.
PRESENT:

ROBERT D. SACK,
BARRINGTON D. PARKER,
DENNY CHIN,
Circuit Judges.
■x

JOHN S. KAMINSKI,
Plaintiff-Appellant,
19-973-cv

v.

SEMPLE, COMMISSIONER OF DEPT. OF
CORRECTIONS, DECLARATORY ONLY, GEORGE
JEPSEN, ATTORNEY GENERAL (FORMERLY),
STATE OF CONNECTICUT, DECLARATORY
ONLY, WALTER CHARLES BANSLEY, IV,
ATTORNEY, OF BANSLEY, ANTHONY & BURDO
(INMATE LEGAL ASSISTANCE CONTRACTOR)
(ILAP), INDIVIDUAL/CORPORATE,
Defendants-Appellees.
■x

Case 19-973, Document 68-1, 12/18/2019, 2732414, Page2 of 7

FOR PLAINTIFF-APPELLANT:

JOHN S. KAMINSKI, pro se, Suffield,
Connecticut.

FOR DEFEND ANTS-APPELLEES:

No appearance.

Appeal from a judgment of the United States District Court for the District
of Connecticut (Underhill, /.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgment of the district court is AFFIRMED.
Plaintiff-appellant John Kaminski, pro se, appeals the judgment of the
district court, entered April 15, 2019, dismissing his complaint sua sponte for failure to
state a claim pursuant to Federal Rule of Civil Procedure 12(b)(6). The complaint, filed
pursuant to 42 U.S.C. § 1983, alleged that Scott Semple, the former commissioner of the
Connecticut Department of Corrections ("DOC"), George Jepsen, the former Connecticut
Attorney General, and Walter Scott Bansley IV, a private attorney who was hired by the
DOC to provide legal services to inmates in a legal assistance program, violated his
rights by denying him access to the courts. Specifically, he alleges that after he elected
to proceed pro se in his habeas proceeding, DOC denied him legal assistance and access
to the law library. We assume the parties' familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.
We review the sua sponte dismissal of a complaint de novo. McEachin v.
McGuinnis, 357 F.3d 197, 200 (2d Cir. 2004). Pro se submissions are reviewed with
2

Case 19-973, Document 68-1, 12/18/2019, 2732414, Page3 of 7

"special solicitude," and "must be construed liberally and interpreted to raise the
strongest arguments that they suggest." Triestman v. Fed. Bureau of Prisons, 470 F.3d 471,
474-75 (2d Cir. 2006) (internal quotation marks and citations omitted).
The district court properly dismissed Kaminski's claims against Semple
and Jepsen to the extent he sought retrospective relief. If a complaint "alleges an
ongoing violation of federal law and seeks relief properly characterized as prospective,"
the Eleventh Amendment cannot bar it. Verizon Md., Inc. v. Pub. Serv. Comm'n ofMd.,
535 U.S. 635, 645 (2002) (internal quotation marks omitted); see also In re Deposit Ins.
Agency, 482 F.3d 612, 617 (2d Cir. 2007) ("[A] plaintiff may sue a state official acting in
his official capacity -- notwithstanding the Eleventh Amendment — for prospective
injunctive relief from violations of federal law." (internal quotation marks and citations
omitted)). But a declaration dealing only with past events would be retrospective and
barred. See Ward v. Thomas, 207 F.3d 114,120 (2d Cir. 2000) ("Any declaration could say
no more than that Connecticut had violated federal law in the past.. . [and] would have
much the same effect as a full-fledged award of damages or restitution by the federal
court, the latter kinds of relief being of course prohibited by the Eleventh Amendment."
(internal quotation marks omitted)). Here, Kaminski sought only a declaration that
Semple and Jepsen violated his right to access the courts. Both defendants are no longer
state officials; they are therefore no longer denying him a right to access the law library.

3

Case 19-973, Document 68-1, 12/18/2019, 2732414, Page4 of 7

The district court correctly held that claims against Semple and Jensen for retroactive
relief are barred by the Eleventh Amendment. See id.
To the extent that Kaminski's complaint may be construed as seeking
prospective relief, his claim for denial of access to the courts also fails.1 While the
Supreme Court has long recognized that prisoners have a right to meaningful access to
the courts and that prison officials are barred from "actively interfering with inmates'
attempts to prepare legal documents," Lewis v. Casey, 518 U.S. 343, 350 (1996) (citing
Bounds v. Smith, 430 U.S. 817 (1977)), prisoners do not have an abstract right to a law
library or legal assistance. Id. To state a denial-of-access-to-the-courts claim, a prisoner
must show that: (1) he suffered an "actual injury," id. at 349, (2) to a non-frivolous legal
claim, (3) concerning his criminal conviction, habeas corpus petition, or conditions of
confinement. Id. at 352-54. Actual injuries include the dismissal of a complaint for a
technical deficiency that would have been cured with appropriate legal facilities, or that
a prisoner was "stymied" from bringing an arguably actionable claim by the
"inadequacies of the law library." Id. at 351.
Here, Kaminski has failed to allege that the denial of access to a law
library resulted in any actual injury relating to his habeas corpus petition. Kaminski
alleged that he discovered a dismissed criminal charge on his own, when none of his

1
Where a public officer sued in his official capacity "resigns, or otherwise ceases to hold
office while the action is pending," the action continues, and "[t]he officer's successor is
automatically substituted as a party." Fed. R. Civ. P. 25 (d).
4

Case 19-973, Document 68-1, 12/18/2019, 2732414, Page5 of 7

appointed attorneys caught the issue. Further, he was able to file and prosecute a
petition for a writ of mandamus without access to a law library. His complaint suggests
that his habeas proceeding was not hindered by his lack of access to a library. Indeed,
the state court forgave a technical error (mislabeling of a motion) that Kaminski
attributed to his lack of access to a law library or legal services.
Although Kaminski acknowledges that his individual claims do not
establish a denial of access to the courts, he asserts that Connecticut's legal services for
prisoners are worse than the system addressed in Lewis. But Lewis makes clear that "an
inmate cannot establish relevant actual injury simply by establishing that his prison's
law library or legal assistance program is subpar in some theoretical sense." 518 U.S. at
351. Kaminski therefore cannot show any actual injury and he does not state a plausible
claim for denial of access to the courts.
The district court also properly dismissed the claims against Bansley. To
be liable under § 1983, a defendant must be a state actor. Am. Mfrs. Mut. Ins. Co. v.
Sullivan, 526 U.S. 40, 49-50 (1999). Generally, a court-appointed attorney "performing a
lawyer's traditional functions as counsel" to a party is not a state actor under § 1983.
Rodriguez v. Weprin, 116 F.3d 62, 65-66 (2d Cir. 1997). We have also held that legal aid
agencies are not state actors, "notwithstanding the receipt of substantial government
funds," as long as the State does not "exercise control or supervision over the internal
operations" of the agency. See Graseck v. Mauceri, 582 F.2d 203, 208 (2d Cir. 1978); see also
5

Case 19-973, Document 68-1, 12/18/2019, 2732414, Page6 of 7

Schnabel v. Abramson, 232 F.3d 83, 87 (2d Cir. 2000) (reaffirming Graseck's holding that "a
legal aid society ordinarily is not a state actor amenable to suit under § 1983"). Bansley,
as the Inmate Legal Assistance Program contractor, acted in the capacity of a legal aid
society by performing legal services on behalf of Connecticut state prisoners. Because
Kaminski offered no allegation that Bansley performed duties outside the traditional
counsel's role, or that DOC controlled or supervised Bansley, he failed to sufficiently
allege that Bansley was a state actor. See Rodriguez, 116 F.3d 65-66; Graseck, 582 F.2d at
208.
Finally, the district court also did not err in denying Kaminski leave to
amend his complaint. A pro se plaintiff should be afforded leave to amend following
dismissal "when a liberal reading of the complaint gives any indication that a valid
claim might be stated." Cuoco v. Moritsugu, 222 F.3d 99,112 (2d Cir. 2000) (internal
quotation marks omitted). Here, however, amendment would have been futile because
Bansley is not a state actor and Kaminski cannot allege that his habeas proceeding was
harmed by any of the defendants' actions. Accordingly, the district court properly
dismissed Kaminski's complaint.

6

Case 19-973, Document 68-1, 12/18/2019, 2732414, Page7 of 7

We have considered Kaminski's remaining arguments and conclude they
are without merit. For the foregoing reasons, we AFFIRM the judgment of the district
court.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

7

Case 3:19-cv-00143-SRU Document 9 Filed 04/02/19 Page 1 of 9

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT

JOHN S. KAMINSKI,
Plaintiff,

No. 3:19-cv-143 (SRU)

v.

SEMPLE, et al.,
Defendants.

INITIAL REVIEW ORDER
John S. Kaminski (“Kaminski”), currently confined at MacDougall-Walker Correctional
Institution in Suffield, Connecticut, filed this complaint pro se under 42 U.S.C. § 1983
challenging the provision of legal assistance to Connecticut inmates. He names three defendants:
former Commissioner Semple; former Attorney General George Jepsen; and Attorney Walter
Bansley IV, the Inmate Legal Assistance Contractor. Kaminski seeks declaratory relief only.
ECF No. 1 at 30. Kaminski asserts a claim for denial of due process and violation of his right of
access to the courts through the denial of access to legal resources. Kaminski’s complaint was
received on January 31, 2019, and his motion to proceed in forma pauperis was granted on
February 6, 2019.
Under section 1915 A of Title 28 of the United States Code, I must review prisoner civil
complaints and dismiss any portion of the complaint that is frivolous or malicious, that fails to
state a claim upon which relief may be granted, or that seeks monetary relief from a defendant
who is immune from such relief. 28 U.S.C. § 1915A. Although detailed allegations are not
required, the complaint must include sufficient facts to afford the defendants fair notice of the

Case 3:19-cv-00143-SRU Document 9 Filed 04/02/19 Page 2 of 9

claims and the grounds upon which they are based and to demonstrate a plausible right to relief.
Bell Atlantic v. Twombly, 550 U.S. 544, 555-56 (2007). Conclusory allegations are not
sufficient. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). The plaintiff must plead “enough facts
to state a claim to relief that is plausible on its face.” Twombly, 550 U.S. at 570. Nevertheless, it
is well-established that “[p]ro se complaints ‘must be construed liberally and interpreted to raise
the strongest arguments that they suggest.”’ Sykes v. Bank ofAm., 723 F.3d 399, 403 (2d Cir.
2013) (quoting Triestman v. Fed. Bureau ofPrisons, 470 F.3d 471,474 (2d Cir. 2006)); see.also
Tracy v. Freshwater, 623 F.3d 90, 101-02 (2d Cir. 2010) (discussing special rules of solicitude
for pro se litigants).
I.

Allegations
Kaminski does not include in his complaint a concise statement of the facts underlying

his claims. A state criminal matter, #04-0214486, was nolled shortly after Kaminski was
sentenced in another matter in 2004. The nolle was entered through an agreement between
Kaminski’s attorney, Martin Rizzi, and the prosecutor, Paul Rotiroti. ECF No. 1 at 9, 33.
Kaminski believes that the nolled case supports his challenge to his conviction.
The nolled case was overlooked by appointed appellate counsel, Arthur Ledford; first
appointed habeas counsel, John Drapp; and second appointed habeas counsel, Jenrufer Smith.
Id. at 33. Kaminski filed a motion for removal of second habeas counsel. Id. at 8. The court
permitted counsel to file an Anders brief and withdraw her representation. Id. Proceeding pro
se, Kaminski discovered the nolled case. Id. at 15.
While proceeding pro se, Kaminski filed a petition for writ of mandamus in state court to
obtain access to legal research materials. The petition was denied. Id. at 17, 19-21.
2

fcSo

Case 3:19-cv-00143-SRU Document 9 Filed 04/02/19 Page 3 of 9

n.

Analysis
A.

Declaratory Relief

Kaminski states that he sues defendants Semple and Jepsen on his claims for denial of
access to the courts and denial of due process only for declaratory relief. ECF No. 1 at 1, 30.
Declaratory relief operates prospectively. It is intended to enable parties to adjudicate
claims before either party suffers significant damages. Orr v. Waterbury Police Dep’t, 2018 WL
780218, at *7 (D. Conn. Feb. 8, 2018) (citations omitted). In Orr, the court dismissed the
request for declaratory relief because the request related only to past actions; the plaintiff had not
identified any legal issue that could be resolved by declaratory relief. Id.
Kaminski states that he has named defendants Semple and Jepsen because they were
serving as Commissioner of Correction and Attorney General during the relevant period. Id. at
26-27. This indicates that Kaminski is seeking declaratory relief relating to past actions. Thus,
the request is inappropriate and the claims against defendants Semple and Jepsen are dismissed
pursuant to 28 U.S.C. § 1915A(b)(l).
B.

Defendant Bansley

Kaminski names Attorney Walter Bansley IV, in his capacity as the Inmate Legal
Assistance Contractor. In that capacity, Attorney Bansley provides legal assistance to inmates in
civil cases just as the public defender provides assistance in criminal and state habeas cases.
To state a claim under section 1983, Kaminski must allege facts showing that the
defendant acted under color of state law. See West v. Atkins, 487 U.S. 42, 48 (1988). A
defendant acts under color of state law when he exercises “some right or privilege created by the
State ... or by a person for whom the State is responsible,” and is “a person who may fairly be
3

A-Si

Case 3:19-cv-00143-SRU Document 9 Filed 04/02/19 Page 4 of 9

said to be a state actor.” Lugar v. Edmondson Oil Co., 457 U.S. 922, 937 (1982). The plaintiff
must identify a “sufficiently close nexus between the State and the challenged action so the
actions of the private defendant may fairly be attributed to the State. Chan v. City ofNew York, 1
F.3d 96, 106 (2d. Cir. 1993) (citation and internal quotation marks omitted), cert, denied, 510
U.S. 978 (1993).
The Supreme Court has identified several factors relevant to an attribution of private
activity as state action.
We have, for example, held that a challenged activity may be state action when it
results from the State’s exercise of “coercive power,” when the State provides
“significant encouragement, either overt or covert,” or when a private actor
operated as a “willful participant in joint activity with the State or its agents.” We
have treated a nominally private entity as a state actor when it is controlled by an
“agency of the State,” when it has been delegated a public function by the State,
when it is “entwined with government policies,” or when government is
“entwined in [its] management of control.”
Brentwood Academy v. Tennessee Secondary Sch. Athletic Ass ’n, 531 U.S. 288, 296 (2001)
(internal citations omitted).
None of the enumerated factors supports a finding that Attorney Bansley is a state actor.
A private attorney, or law firm, does not become a state actor merely because he is an officer of
the court or has been appointed to represent an indigent litigant. See Polk Cty. v. Dodson, 454
U.S. 312, 318 (1981) (holding that lawyer does not act under color of state law merely because
he is an officer of the court). Nor does a public defender or court-appointed attorney act under
color of state law. Brown v. Legal Aid Soc’y, 367 F. App’x 230,231 (2d Cir. 2010) (“A ‘public
defender does not act under color of state law when performing a lawyer’s traditional functions
• as counsel to a defendant in a criminal proceeding’”) (quoting Dodson, 454 U.S. at 325);

4

Case 3:19-cv-00143-SRU Document 9 Filed 04/02/19 Page 5 of 9

Schnabel v. Abramson, 232 F.3d 83, 87 (2d Cir. 2000) (“a legal aid society ordinarily is not a
state actor amenable to suit under § 1983”); Lefcourtv. Legal Aid Soc’y, 445 F2d 1150, 1157 (2d
Cir. 1971) (although Legal Aid Society provides services that otherwise would be provided by
the State, it does not act under color of state law).
Kaminski alleges that Attorney Bansley and his firm provide legal assistance to
Connecticut inmates under contract with the Department of Correction. In that capacity, they act
as the State’s adversary, not its advocate. Kaminski fails to allege facts suggesting that the
actions taken by Attorney Bansley are orchestrated by the State or the Department of Correction,
or that any state official coerced him into representing any inmate in a particular manner. Thus,
Attorney Bansley is not a state actor and all claims against him are dismissed. See Hannon v.
Schulman and Associates, No. 13-CV-583 (JAM), 2015 WL 3466847, at *3 (D. Conn. June 1,
2015) (dismissing complaint on initial review because attorneys working for the firm providing
legal assistance to Connecticut inmates under a prior contract with the Department of Correction
were not state actors).
C.

Right of Access to the Courts and Due Process

To the extent that the request for declaratory relief may operate prospectively to require
provision of access to legal materials in the future, the claim is not cognizable.
Kaminski asserts claims for violation of his right of access to the courts and for denial of
due process. Kaminski’s focus appears to be his inability to obtain legal research materials to
pursue his state habeas action once he decided to forgo representation by the appointed special
public defender. It is well settled that inmates have a constitutional right of access to the courts.
See Lewis v. Casey, 518 U.S. 343, 350 (1996) (citing Bounds v. Smith, 430 U.S. 817, 821, 828
5

4A3

Case 3:19-cv-00143-SRU Document 9 Filed 04/02/19 Page 6 of 9

(1977)). That right “may not be unreasonably obstructed by the actions of prison officials.”
jBaker v. Weir, No. 3:16-cv-166 (JAM), 2016 WL 7441064, at *2 (D. Conn. Dec. 27, 2016)
(citing Washington v. James, 782 F.2d 1134, 1138 (2d Cir. 1986)); see also City ofNew Yorkv.
Beretta U.S.A. Corp., 524 F.3d 384, 397 (2d Cir. 2008) (“constitutional right of access to tbe
courts is violated where government officials obstruct legitimate efforts to seek judicial
redress”).
To state a claim for denial of access to the courts, Kaminski must show that he suffered
an actual injury as a result of the conduct of the defendants. 77.. at 351-55. To establish an actual
injury, Kaminski must allege facts showing that the defendant took actions or was responsible
for actions that “deprived him ... of an opportunity to press some nonfrivolous and arguable
legal claim in court.” Brown v. Choinski, No. 09-CV-1631 (MRK), 2011 WL 1106232, at *5 (D.
Conn. Mar. 23, 2011). The Supreme Court has rejected, however, the idea that the prisoner
must be afforded the means to litigate effectively once his case is filed. Lewis, 518 U.S. at
354. In addition, Kaminski must show that the defendants acted deliberately and maliciously.
Davis v. Goord, 320 F.3d 346, 351 (2d Cir. 2003).
In Connecticut, legal assistance in state criminal matters and habeas corpus actions is
provided by the Office of the Public Defender and legal assistance in civil matters relating to
conditions of confinement is provided by Inmate Legal Aid Program. If an inmate chooses to
forgo that assistance and represent himself, the Department of Correction has no obligation to
provide other legal services to assist the inmate. Santiago v. Whidden, No. 3:10-cv-1839 (VLB),
2012 WL 668996, at *4 (D. Conn. Feb. 29, 2012) (citing United States v. Sykes, 614 F.3d 303,
311 (7th Cir. 2010) (“a defendants who declines appointed counsel and instead invokes his
6

A'SY

Case 3:19-cv-00143-SRU Document 9 Filed 04/02/19 Page 7 of 9

constitutional right to self-representation... ‘does not have a right to access to a law
library’”); State v. Fernandez, 254 Conn. 637, 658 (2000) (criminal defendant who waives right
to counsel and has been appointed standby counsel is not constitutionally entitled to access to
law library)); see also United States v. Chatman, 584 F.2d 1258,1360 (4th Cir. 1978) (in
considering claim of prisoner who complained of lack of materials in prison library after electing
to proceed without assistance of counsel, court concluded that government had no obligation to
provide legal materials and declined to read Bounds to give prisoner option regarding form of
legal assistance he receives).
In Spates v. Manson, 644 F.2d 80 (2d Cir. 1981), the Second Circuit considered claims
challenging the adequacy of the prison law library. The court held that the Sixth Amendment
right to self-representation in a criminal proceeding “does not carry with it a right to statefinanced library resources where state-financed legal assistance is available.

Id. at 84—85.

Kaminski is a convicted prisoner. His claim involves a state habeas action, not a criminal trial.
Kaminski has no constitutional right to an attorney in a state post-conviction proceeding.
Coleman v. Thompson, 501 U.S. 722, 752 (1991). Thus, any argument that Kaminski was
deprived of his right to assistance of counsel through the denial of access to legal research
materials fails.
Kaminski was proceeding pro se because he was not satisfied with his appointed
attorney’s performance. Because Kaminski’s ability to file his state habeas action was not
impeded, the claim appears to allege that he is unable to litigate effectively, a claim not
cognizable under Lewis. Kaminski has not shown that he was denied the ability to file a

7

1

rr^

rf

Case 3:19-cv-00143-SRU Document 9 Filed 134/02/19 Page 8 of 9

i

potentially successful claim in court, so he has not alleged a cognizable claim for denial of
access to the courts regarding his state habeas action.
Kaminski generally asserts a claim for denial of due process. He does not specify
whether his claim is for violation of his right to substantive or procedural due process. Because
he has not identified any process he was denied, the Court assumes that Kaminski asserts a
substantive due process claim.
“Substantive due process protects against government action that is arbitrary, conscienceshocking, or oppressive in a constitutional sense, but not against a government action that is
‘incorrect or ill-advised.”’ Cunney v. Board of Trustees of Village of Grand View, N. Y., 660 F.3d
612, 626 (2d Cir. 2011) (citing Kaluczky v. City of White Plains, 57 F.3d 202, 211 (2d Cir.
1995)). Thus, “[sjubstantive due process standards are violated only by conduct that is so
outrageously arbitrary as to constitute a gross abuse of governmental authority.” Id. (quoting
Natale v. Town of Ridgefield, 170 F.3d 258, 263 (2d Cir. 1999) (internal quotation marks
omitted).
Kaminski has no federal constitutional right to a law library or representation in a state
post-conviction proceeding. The court can discern no government action so egregious that it
rises to the level of a substantive due process violation.
Conclusion
The complaint is DISMISSED pursuant to 28 U.S.C. § 1915A(b) for failure to state
plausible claims for relief. The Clerk is directed to enter judgment and close this case.
In fight of the dismissal of this case, Kaminski’s motion for appointment of counsel
[ECF No. 3] is DENIED as moot.

\
Case 3:19-cv-00143-SRU

Document 17 Filed 05/07/19 Page 3 of 3

Kaminski does not identify any facts or law that I overlooked in dismissing the complaint
as he is required to do when filing a motion for reconsideration. In addition, Kaminski does not
identify any basis for awarding declaratory relief, the only relief requested in the Complaint.
Thus, his motion for reconsideration is denied. If Kaminski believes that there are facts that give
rise to a valid cause of action or declaratory judgment, however, he may file an amended
complaint within 30 days of this order.
Kaminski’s motion for reconsideration [ECF No. 12] is DENIED.
So ordered.
Dated at Bridgeport, Connecticut, this 7th day of May 2019.

/s/ STEFAN R. UNDERHILL
Stefan R. Underhill
United States District Judge

3

a
/

Additional material
from this filing is
available in the
Clerk's Office.

